No. 19-177
IN THE

s;uprtmt <lCourt of tbt Qllntttb
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ETAL.,
Petitioners,
v.

ALLIANCE FOR OPEN SOCIETY
INTERNATIONAL, INC., ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I, Douglas W. Dunham, counsel for amicus cunae Washington Legal
Foundation (WLF) and a member of the Bar of this Court, certify that on this

4th

day

ofMarch, 2020, three copies ofWLF's briefwere posted via first·class mail, addressed
to the following:
Noel J. Francisco
Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530·0001
202·514·2217
SupremeCtBriefs@USD OJ. gov
Counsel for Petitioners
David William Bowker
WILMER CUTLER PICKERING HALE AND DORR LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006
202·663·6558
david.bowker@wilmerh ale.com
Counsel for Respondents

I also certify that, in accord with Supreme Court Rule 29.3, an electronic
version of WLF's brief was transmitted to counsel of record at the e·mail addresses
above, and that all parties required to be served have been served.

DOUGLAS W. DUNHAM

Counsel ofRecord
DECHERTLLP
1095 Avenue of the Americas
New York, NY 10036
(212) 698·3500
douglas.dunham@dechert.com
Counsel for Amicus Curiae
Washington Legal Foundation
Dated: March 4, 2020

